   April 12, 2002




Information Technology

The Preventive Health Care
Application and an Associated
Upgrade
(D-2002-081)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
CHCS                  Composite Health Care System
OASD(HA)              Office of the Assistant Secretary of Defense (Health Affairs)
HEAR                  Health Enrollment Assessment Review
MTF                   Military Treatment Facility
PHCA                  Preventive Health Care Application
PPIP                  Put Prevention Into Practice
                        Office of the Inspector General, DoD
Report No. D-2002-081                                                  April 12, 2002
   (Project No. D2001LF-0184)

               The Preventive Health Care Application and an
                            Associated Upgrade

                                Executive Summary

Introduction. The Preventive Health Care Application was a tool designed to enable
clinicians to deliver and track appropriate and timely preventive services provided to all
enrolled military health system members. The Preventive Health Care Application,
which included three off-the-shelf modules, was developed to support the Put
Prevention Into Practice program by providing health care providers the ability to
gather, maintain, retrieve, manipulate, analyze, display, and print preventive health
care information. Beginning in 1996, the Office of the Assistant Secretary of Defense
(Health Affairs) developed the Preventive Health Care Application to be a stand-alone
application that would interface with the Composite Health Care System II.

Objectives. This audit was performed in response to a Defense Hotline allegation
related to the operability and cost of the Preventive Health Care Application and an
associated upgrade. The audit objective was to determine whether the Preventive
Health Care Application and an associated upgrade adequately support the Put
Prevention Into Practice program. We also reviewed the management control program
applicable to the fielding of the Preventive Health Care Application and an associated
upgrade.

Results. The allegation that millions of dollars were spent on a software application
that became useless following an upgrade and subsequent patch was partially
substantiated. The Preventive Health Care Application had many operability problems
and was not widely accepted by the military health care community. In December
1999, the Office of the Assistant Secretary of Defense (Health Affairs) put the
Preventive Health Care Application in a legacy status and stopped the development and
additional fielding of the Preventive Health Care Application. Based on Office of the
Assistant Secretary of Defense (Health Affairs) financial data, approximately
$27 million of Defense Health Program funds were spent developing and fielding the
Preventive Health Care Application. The problems encountered with the development
and implementation of the Preventive Health Care Application occurred several years
ago. Changes planned for the Composite Health Care System II will include the
preventive health care requirements. Further, the Office of the Assistant Secretary of
Defense (Health Affairs) planned several improvements in the systems development and
fielding process, which, if fully implemented, should reduce the likelihood of similar
problems occurring with future systems. For details of the audit results see the Finding
section; see Appendix A for a discussion of our review of the management control
program.

Management Action. The Office of the Assistant Secretary of Defense (Health
Affairs) recognized the need to establish, execute, and monitor plans to assist with
successful implementation of medical information systems. In May 1999, it established
two separate organizations that work together on medical information systems: one
handles functional (user) requirements and the other handles information systems
(technical) development. Moreover, the Office of the Assistant Secretary of Defense
(Health Affairs) plans to focus on ensuring business processes are incorporated in an
implementation plan before fielding an information system. Further, the Office of the
Assistant Secretary of Defense (Health Affairs) planned several actions to improve the
planning process and to increase user involvement throughout the development and
fielding of information systems. Specifically, the Office will hold pre-deployment
meetings and conferences with members of the various functional areas to discuss
practices, plans, and strategies to help manage and set user expectations. The Office of
the Assistant Secretary of Defense (Health Affairs) also developed a post-
implementation review, which includes measuring customer feedback, to ensure
projected benefits are achieved. Although the Office of the Assistant Secretary of
Defense (Health Affairs) provided documentation concerning those improvements, it
was not part of this audit’s scope to verify or evaluate the effectiveness of the
improvements.

Management Comments. We provided a draft of this report on February 25, 2002.
No written response to this report was required and none was received. Therefore, we
are publishing this report in final form.




                                           ii
Table of Contents

Executive Summary                                                          i


Introduction
     Background                                                           1
     Objectives                                                           2

Finding
     Development and Fielding of the Preventive Health Care Application   3

Appendixes
     A. Audit Process
         Scope and Methodology                                             8
         Management Control Program Review                                 8
         Prior Coverage                                                    9
     B. Report Distribution                                               10
Background
            This audit was performed in response to an allegation to the Defense Hotline
            that millions of dollars may have been wasted on travel, training, and
            procurement costs in the development and fielding of the Preventive Health Care
            Application (PHCA). The complaint alleges that the software application
            became useless following an upgrade and that a subsequent patch failed to solve
            problems created by the upgrade. PHCA was fielded by the Tri-Service
            Medical Systems Support Center, Brooks Air Force Base, Texas, a former
            component of the Office of the Assistant Secretary of Defense (Health Affairs)
            (OASD[HA]). PHCA was designed to help fulfill requirements of the Put
            Prevention Into Practice (PPIP) program.

            Put Prevention Into Practice. PPIP was a campaign developed by the
            Department of Health and Human Services to transform the focus of health care
            delivery in the United States from treatment of existing injuries and illness to
            prevention of illness or injuries and promotion of wellness. A memorandum
            from the Assistant Secretary of Defense (Health Affairs), March 31, 1998,
            required all military treatment facilities (MTFs) to develop strategies and
            systems to successfully implement PPIP by April 1999. The memorandum
            requires MTFs to:

                    •    administer annually the computerized Health Enrollment Assessment
                         Review (HEAR) II to all TRICARE Prime1 beneficiaries, collecting
                         information on patients’ health habits and other factors that may
                         affect their overall health;

                    •    implement aggressive campaigns to screen immunization status at
                         every visit and provide immunizations required for all infants,
                         children, adolescents, and adults; and

                    •    provide and document clinical preventive screenings, other services,
                         and health promotion counseling.

            PHCA. PHCA was a tool designed to enable clinicians to deliver and track
            appropriate and timely preventive services provided to all enrolled military
            health system members. PHCA, which included three off-the-shelf modules,
            was developed to support the PPIP program by providing health care providers
            the ability to gather, maintain, retrieve, manipulate, analyze, display, and print
            preventive health care information. Beginning in 1996, OASD(HA) developed
            PHCA to be a stand-alone application that would interface with the Composite
            Health Care System (CHCS) II. OASD(HA) was scheduled to field CHCS II in
            FY 1999; however, fielding was delayed until at least FY 2002. CHCS II was
            designed to generate and maintain a comprehensive historical patient record for
            each military health system member. PHCA began as a prototype project in


1
    TRICARE Prime is one of three health care delivery options in the military health system. It is a
    managed care program that works like a civilian health maintenance organization.

                                                       1
     February 1996. An Air Force multidisciplinary team developed the functional
     and technical requirements in May 1996 and OASD(HA) approved funding in
     August 1996.

     DoD Instruction 6490.3, “Implementation and Application of Joint Medical
     Surveillance for Deployment,” August 7, 1997, requires OASD(HA) to field
     DoD medical information systems that capture beneficiary health care
     information that will be used in preventive health care programs. Subsequently,
     OASD(HA) assumed project management responsibility for the tri-Service
     PHCA project. Within OASD(HA), the Tri-Service Medical Systems Support
     Center, which was closed in September 2001, was directly responsible for
     fielding PHCA. PHCA included three off-the-shelf modules:

             •   the HEAR II Questionnaire (a commercial off-the-shelf module),

             •   the Immunization Tracking Module (a commercial off-the-shelf
                 module), and

             •   the Clinical Preventive Services database (a Government off-the-shelf
                 module) that uses CHCS data to assist providers in developing patient
                 care plans and in tracking screenings.


Objectives
     The audit objective was to determine whether PHCA and an associated upgrade
     adequately support the PPIP program. We also reviewed the management
     control program applicable to the fielding of PHCA and an associated upgrade.
     See Appendix A for a discussion of the audit scope and methodology, the review
     of the management control program, and prior coverage.




                                         2
                    Development and Fielding of the
                    Preventive Health Care Application
                    The allegation that millions of dollars were spent on an application that
                    became useless following a software upgrade and subsequent patch was
                    partially substantiated. PHCA had many operability problems and was
                    not widely accepted by the military health care community. The
                    operability problems and limited user acceptance occurred because
                    OASD(HA) had not established an implementation plan and had not
                    adequately involved users in the development and fielding of PHCA. In
                    December 1999, OASD(HA) put PHCA in a legacy status and stopped
                    the development and additional fielding of PHCA. Based on OASD(HA)
                    financial data, approximately $27 million of Defense Health Program
                    funds were spent developing and fielding PHCA. The problems
                    encountered with the development and implementation of PHCA
                    occurred several years ago. Since then, OASD(HA) planned several
                    improvements in the systems development and fielding process, which, if
                    fully implemented, should reduce the likelihood of similar problems
                    occurring with future systems.


PHCA Operability and User Acceptance
            Users experienced operability problems throughout the development and
            fielding of PHCA and did not fully accept or widely use PHCA. PHCA was
            originally expected to be used for at least 10 years and to be fielded at
            175 sites. In a December 1999 executive session, the Military Health System
            Information Management Proponent Committee, within OASD(HA), decided to
            officially place PHCA in a legacy status and to discontinue any additional
            development and fielding beyond the 57 sites where it had already been fielded.
            In March 2000, to correct some of the user-identified problems, contractor
            personnel issued a Six-Month Maintenance Release2 (upgrade). Beginning in
            October 2000, the contractor issued a patch to resolve problems associated with
            the upgrade. Although users experienced significant problems with the upgrade
            and the patch, many operational problems existed well before they were
            released.

            In October 1999, OASD(HA) contracted Ruffin Informatics Inc. to perform an
            independent evaluation of PHCA because of “uncertainty about PHCA’s
            capabilities and potential and the need to decide whether to resume deployment
            of PHCA.” Ruffin Informatics Inc. reviewed nine sites where PHCA had been
            fielded and conducted in-depth interviews with PHCA users at those sites. It



2
    To be consistent with the Defense Hotline allegation, we refer to the Six-Month Maintenance Release as
    an upgrade, although it was only designed to fix some of the problems with PHCA.

                                                      3
     issued its report (the Ruffin Report) on November 1, 1999. Users at the nine
     sites voiced concern about a variety of PHCA operability problems, such as:

           •   limited report writing capability,

           •   lack of portability, and

           •   problems with the Immunization Tracking Module.

    In addition, a May 2000 Post-Deployment Evaluation by OASD(HA) showed
    that at the 32 sites that responded, the HEAR II Questionnaire was the most
    widely used PHCA module. Although 21 (66 percent) sites reported that they
    used HEAR II, only 13 (41 percent) sites used the Immunization Tracking
    Module. Further, only 8 (25 percent) sites used the Clinical Preventive Services
    module.

    The more recent OASD(HA) Site Administrator Survey, performed in
    September 2001, showed that out of the 34 sites that responded to the survey,
    only 19 (56 percent) were using any portion of PHCA. One site using all three
    PHCA modules stated that the PHCA no longer provided HEAR II
    Questionnaire reports after the upgrade and patch were implemented. The Site
    Administrator Survey also reported problems with the Immunization Tracking
    Module; report writing capabilities; and system maintenance, lockouts, and
    outages. Respondents also stated that the application was not user friendly; was
    slow; and required system administration resources (people, training, and time)
    that were not available. We visited the Brooks Air Force Base Clinic and the
    Brooke Army Medical Center, Texas, and confirmed that they had PHCA
    interface problems, data inaccuracies, and problems resulting from the upgrade.
    Had OASD(HA) developed an implementation plan and solicited more user
    involvement before fielding PHCA, operational problems could have been
    minimized and user acceptance increased.


Implementation Plan and User Involvement
    Implementation Plan. Before fielding PHCA, OASD(HA) did not develop a
    military health system-wide plan for implementing PHCA. On April 1, 2000,
    OASD(HA) issued a Population Health Improvement Plan; however, it focused
    primarily on implementing PPIP rather than PHCA and was issued after
    OASD(HA) had placed PHCA in a legacy status. The Ruffin Report stated that
    a health re-engineering and education plan for military health system members
    had not been disseminated. The Ruffin Report stated that such a plan was
    needed to encourage MTFs to develop their own implementation strategies,
    alleviate most of the problems resulting from lack of direction, and achieve
    greater consistency and alignment of user expectations. The Ruffin Report also




                                          4
    included statements from users that a PPIP/PHCA Implementation Plan was
    critical to the success of the program and should have included:

           •   phased implementation,

           •   active project management,

           •   population health education, and

           •   the integration of PPIP into routine health care delivery.

    Further, the Ruffin Report noted inconsistencies in the number and types of
    clinics chosen to participate in the initial fielding of PHCA and the size and
    segments of patient populations targeted. Additionally, the absence of a clear
    plan for using PHCA to implement PPIP before fielding PHCA resulted in
    different operational implementation approaches. And finally, the Ruffin Report
    stated that none of the nine sites reviewed were in compliance with PPIP.

    User Involvement. Many of the operability problems could have been
    eliminated or reduced if user input had been more actively solicited and
    considered before fielding PHCA. The Air Force tested a prototype of PHCA
    at McDill Air Force Base, Florida, in June 1997 and, in November 1997,
    started testing a subsequent version of PHCA at three “alpha” sites (Brooks Air
    Force Base Clinic, Brooke Army Medical Center, and Naval Hospital Beaufort,
    South Carolina). The alpha site testing, which was completed in April 1998,
    concentrated more on networking and system interface issues than on how PPIP
    would be implemented through PHCA and what business process changes were
    needed to effectively implement PHCA. According to the September 2001 Site
    Administrator Survey, users stated that they were inadequately trained and
    should have been more involved in the PHCA design, development, and
    implementation process. The Ruffin Report stated that most of the MTFs
    reviewed did not note any tangible benefits from using PHCA. The Ruffin
    Report also stated that the level of MTF commander support and physician
    enthusiasm varied across the MTFs and were critical to the program’s success.


PHCA Fielding
    OASD(HA) spent about $27 million on an application that was never fully
    fielded. In a December 1999 executive session, the Military Health System
    Information Management Proponent Committee, decided to officially place
    PHCA in a legacy status and to discontinue any additional development and
    fielding. In addition to PHCA operability problems and the lack of user
    acceptance, program and architectural changes in CHCS II contributed to the
    decision to place PHCA in a legacy status. Although OASD(HA) plans to
    include the functionality of PHCA in CHCS II, only one of the three PHCA
    modules, the HEAR II Questionnaire, will be used in CHCS II. As of
    October 2001, software was being written to include the functionality of the


                                        5
    other two PHCA modules in CHCS II. However, until CHCS II is fielded,
    DoD will not have a standard system in use at the MTFs for implementing
    PPIP.


Management Action
    OASD(HA) recognized the need to establish, execute, and monitor plans to
    assist with successful implementation of medical information systems throughout
    the military health system. In May 1999, it established two separate
    organizations within OASD(HA) that work together on medical information
    systems: one handles functional (user) requirements and the other handles
    information systems (technical) development. OASD(HA) also recognized that
    changes in business processes and procedures must occur before an information
    system can be successfully fielded. Thus, OASD(HA) plans to focus on
    ensuring that business processes are incorporated in an implementation plan
    before fielding an information system as part of a particular program or policy.

    Management planned several actions to improve the planning process and to
    increase user involvement in the development and fielding of information
    systems. In addition to attempting to gain a thorough understanding of the
    business practices at MTFs, OASD(HA) planned to ensure that users participate
    in the development and testing of health care information systems, so that
    problems can be fixed before a system is fielded. Before fielding a system,
    OASD(HA) plans to hold pre-deployment meetings and conferences with
    members of the various functional areas to discuss practices, plans, and
    strategies to help manage and set user expectations. OASD(HA) also developed
    a post-implementation review, which includes measuring customer feedback, to
    ensure projected benefits are achieved. Although OASD(HA) provided
    documentation concerning those improvements, it was not part of this audit’s
    scope to verify or evaluate the effectiveness of the improvements.


Conclusion
    The allegation that millions of dollars were wasted on PHCA because an
    upgrade and subsequent patch made the application useless was partially
    substantiated. Through FY 2001, about $27 million of Defense Health Program
    funds had been spent on the development and fielding of PHCA at 57 of the
    175 intended sites. OASD(HA) halted fielding of PHCA because of persistent
    operability problems and a lack of user acceptance. Although the operability
    problems and low user acceptance existed well before the upgrade and patch
    were issued, additional problems were created by the changes. Additionally,
    changes planned for CHCS II reduced the need for PHCA, because the
    preventive health care requirements are going to be built directly into CHCS II.




                                        6
Overcoming operability problems and gaining wide acceptance among users can
be difficult when implementing any new system or application and PHCA was
no exception. OASD(HA) plans systemic changes in its systems development
and fielding process. Actions planned by OASD(HA), if fully implemented,
should reduce the likelihood of similar problems occurring with future system
implementations. Consequently, we are not making any recommendations in
this report.




                                  7
Appendix A. Audit Process

Scope and Methodology
    Our review focused on the Defense Hotline allegation that millions of dollars
    may have been wasted on the development and fielding of PHCA. We
    examined documentation supporting the PPIP program and PHCA
    documentation, including contractual statements of work; development, testing
    and evaluation documents; military health system committee meeting minutes;
    and financial documents. The documentation that we reviewed supporting PPIP
    and PHCA was dated from August 1996 through September 2001.

    We interviewed DoD and contract personnel with the Information Management
    Technology and Reengineering Directorate, OASD(HA). We also interviewed
    personnel associated with the PPIP program and personnel at MTF test sites for
    PHCA. We interviewed personnel at the Tri-Service Medical Systems Support
    Center before its closure on September 30, 2001.

    Scope Limitations. We did not validate the accuracy of the financial data
    provided by OASD(HA), used to determine that $27 million was spent on
    PHCA; the Site Administrator Survey results; or the Ruffin Report. Also, we
    did not verify whether proposed OASD(HA) systemic changes and
    improvements had been implemented.

    High-Risk Area. The General Accounting Office has identified several high-
    risk areas in DoD. This report provides coverage of the DoD Systems
    Modernization high-risk area.

    Use of Computer-Processed Data. We did not rely on computer-processed
    data to perform this audit.

    Audit Type, Dates, and Standards. We performed this program audit from
    August 2001 through January 2002 in accordance with generally accepted
    government auditing standards, except for the scope limitations previously
    discussed in the report.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD, including DoD contractors. Further details are
    available on request.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures” August 28, 1996, require DoD organizations to implement a


                                       8
     comprehensive system of management controls that provides reasonable
     assurance the programs are operating as intended and to evaluate the adequacy
     of the controls.

     Scope of the Review of the Management Control Program. We reviewed the
     adequacy of OASD(HA) management controls applicable to the fielding of
     PHCA and an associated upgrade. Specifically, we reviewed OASD(HA)
     management controls for planning the development and fielding of PHCA. We
     also reviewed the adequacy of management’s self-evaluation.

     Adequacy of Management Controls. Although not identified as a material
     weakness in the annual statement of assurance, OASD(HA) had identified
     weaknesses in the system development process and has planned corrective
     actions to improve implementation planning and increase user involvement. In
     addition, corrective actions planned by OASD(HA) in response to Inspector
     General, DoD, Report No. 99-068, “Acquisition Management of the Composite
     Health Care System II Automated Information System,” January 21, 1999,
     should also help to correct the system development weaknesses addressed in this
     report.

     Adequacy of Management’s Self-Evaluation. OASD(HA) has taken several
     actions to improve the management control program for information technology.
     In a new 5-year plan, OASD(HA) officials identified implementation and user
     involvement in the assessable unit “Program Executive Office for Military
     Health System Information Technology.” That unit covers design,
     development, acquisition, test, evaluation, fielding, operation, and maintenance
     of military health system information technology programs. That assessable unit
     in the Information Management Technology Directorate has been redefined for
     the 5-year plan (FY 2001 through FY 2006). Management’s self-evaluation is
     scheduled in FY 2002.


Prior Coverage
     During the last 5 years, the Inspector General, DoD, issued two reports
     discussing health care system development issues and CHCS II. Unrestricted
     Inspector General, DoD, reports can be accessed at
     http://www.dodig.osd.mil/audit/reports.

Inspector General, DoD
     Inspector General, DoD, Report No. D-2001-038, “Allegations Relating to the
     Procurement of a Report Module for the Composite Health Care System II,”
     January 29, 2001

     Inspector General, DoD, Report No. 99-068, “Acquisition Management of the
     Composite Health Care System II Automated Information System,”
     January 21, 1999

                                        9
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Health Affairs)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Non-Defense Federal Organization
Office of Management and Budget




                                          10
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         11
Audit Team Members
The Readiness and Logistics Support Directorate, Office of the Assistant Inspector
General for Auditing, DoD, prepared this report. Personnel of the Office of the
Inspector General, DoD, who contributed to the report are listed below.

Shelton R. Young
Michael A. Joseph
Scott J. Grady
Dawn M. Borum
Elmer J. Smith
Eva M. Zahn
Lieutenant Commander Patrick E. Protacio, U.S. Navy
William F. Lanyi
Elizabeth L.N. Shifflett




                                          13
